           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



  PERFORMANCE MEASURE REVIEW:
  RELIABILITY OF THE DATA USED TO
   MEASURE FIELD OFFICE ACCESS

   September 2001    A-04-99-03008
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units, called
the Office of Inspector General (OIG). The mission of the OIG, as spelled out in the
Act, is to:

  � Conduct and supervise independent and objective audits and investigations
    relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the Social
Security Administration's programs, operations, and management and in our own
office.
                                                      c;,-,," s£c&
                                                                 ~
                                                     ~
                                                     \I: 1IIIIII~~
                                                        '\'lSTi.!'

                                       SOOAL              SECURITY
                                         Office of the Inspector General
MEMORANDUM

Date:   September    27,   2001                                                      Refer To:



        Larry G. Massanari
        Acting Commissioner
         of Social Security

        Inspector General

        Performance Measure Review:         Reliability   of the Data Used to Measure        Field Office
        Access (A-O4-99-03008)



        The Government Performance and Results Act of 1993 (GPRA), codified in part at
        31 U.S.C. §§ 1115-1119 (2001), requires the Social Security Administration      (SSA) to
        develop performance indicators that assess the relevant service levels and outcomes of
        each program activity. GPRA also calls for a description of the means employed to verify
        and validate the measured values used to report on program performance.         The objective
        of this audit was to assess the reliability and integrity of SSA's data used to measure the
        following Fiscal Year (FY) 1999 GPRA performance indicators.

             Percent of public    with an appointment         waiting   10 minutes   or less:
             85 percent

             Percent of public without an appointment waiting 30 minutes or less:
             70 percent

        These "waiting time" indicators and goals remain unchanged in the FY 2000 and 2001
        Annual Performance Plans. The Office of Public Service and Operations Support
        (OPSOS), located in the Office of the Deputy Commissioner      for Operations, is the
        sponsor of record and has overall responsibility for implementing the customer service
        waiting time performance measures.


        BACKGROUND

        The Agency's Strategic Plan for FYs 1997 through 2002 contains a number of
        performance indicators related to its strategic goal of delivering customer-responsive,
        world-class service. SSA designed the two performance indicators identified above to
        chart the Agency's progress in providing timely service to customers visiting SSA field
        offices. After analyzing the waiting time data submitted for FY 1999, SSA reported that
        84.6 percent of its customers with an appointment waited 10 minutes or less to be served
        and 71.6 percent of customers without an appointment waited 30 minutes or less to be
        served.
In September 1999, the Social Security Advisory Board (Board) questioned the validity of
SSA’s reported waiting time results.1 Field office managers reported to Board members
that waits of 2 to 4 hours were not uncommon in many offices, especially urban offices.
Field office managers suggested the self-reported waiting time results used to calculate
SSA’s percentages might not reflect the customer’s actual experience. While reports of
long customer waiting times were anecdotal, the Board said it heard them too consistently
from employees nationwide to ignore them. Board members themselves reported
observing crowded field office waiting rooms that, in their opinion, affirmed the reports of
long waiting times. The Board concluded SSA’s methods of measuring field office waiting
times might rely too heavily on data that could easily be manipulated to make
performance look better than it really is.

RESULTS OF REVIEW
SSA could not provide documentation to support the data collected and used to report
results for the FY 1999 waiting time performance measures. Therefore, we were unable
to accomplish the portion of our audit objective dealing with the reliability of the waiting
time data. However, we did evaluate SSA’s procedures for collecting and analyzing the
waiting time data. Based on this review, we share the Board’s concern over the validity of
the field office waiting time study (FOWTS) sampling process and the accuracy of the
study’s results. Specifically, we are concerned because SSA did not adequately control
the sampling process and allowed field offices to deviate from the designed sampling
parameters. We are also concerned because faulty data processing procedures and
programming logic could have adversely impacted both the integrity of the FOWTS data
and the accuracy of the waiting time percentages. As a result, the published percentages
of customers served with and without appointments in the targeted time frames of 10 or
30 minutes, respectively, may have been unreliable.

RELIABILITY OF DATA COULD NOT BE DETERMINED

By the time of our audit, SSA had destroyed the source documents used to calculate
FY 1999 waiting time percentages. As a result, we were unable to determine the
reliability of the performance measure data SSA used to report on the waiting times of
customers visiting field offices.

SSA used the FOWTS to determine the waiting times of customers visiting field offices.
Each quarter, every SSA field office was scheduled to record waiting time data during a
specified 1-hour period. The field office manually recorded each customer’s waiting time
on Form SSA-3198, Field Office Waiting Time Study (Form). The Form was described as
a “mark sense form” on which information was entered by filling in circles that
corresponded with the recorded information. The Form captured waiting time data for up
to three interviews, along with other information regarding the customer’s visit.




1
    How the Social Security Administration can Improve its Service to the Public, September 1999.

                                                      2
Field offices mailed the completed Forms to the Office of Information Management (OIM),
where they were electronically scanned to produce a computerized data file. The data
were copied to floppy disks and subsequently imported into the cumulative FOWTS data
base. Once OIM processed the raw data, waiting time statistics and quarterly or annual
reports were generated.

OIM’s practice was to retain the Forms for only one quarter and then to discard the
source documentation. Without the original documents from FY 1999, we could not
determine whether the Forms field offices sent were scanned and appropriately included
in the raw data files. Therefore, we could not assess the reliability of the data SSA used
to report on the FY 1999 waiting time performance measures.

FIELD OFFICE DATA COLLECTION WAS INCONSISTENT AND DEVIATED FROM
THE FOWTS SAMPLING PLAN

While we could not assess the overall reliability of the FY 1999 data, we did evaluate the
FOWTS data collection process and determined it was poorly controlled. We identified
several field offices that did not report FOWTS data (non-reporters). Additionally, we
detected field offices that (1) did not follow the sampling plan, (2) had varied collection
procedures, and (3) modified their sampling periods. We also noted low numbers of
customers served by appointment during scheduled sampling periods. By allowing field
offices to deviate from the established sampling plan and vary their methods for data
collection, the overall quality and completeness of the sampling process was adversely
impacted. As a result, the integrity of the FOWTS data and the accuracy of the published
waiting time percentages may be in question.

High Numbers of Non-Reporters

Our review of the FY 1999 FOWTS data files disclosed that many field offices were not
included in the waiting time calculations. SSA staff did not ensure that field offices
submitted waiting time data as requested. Staff members merely scanned the Forms
they received. In FY 1999, 1,292 field offices were scheduled to conduct a FOWTS each
quarter, for a total of 5,168 annual sample periods. However, the FY 1999 FOWTS data
file contained only 3,086 (59.7 percent) of the scheduled field office tests.

In its Annual Performance Plan Status Report, SSA explained how the waiting time data
were collected and calculated. The definition implies the waiting time percentages SSA
reports are based on field offices’ 100-percent participation in the FOWTS. However,
from our analysis of the data, we know this is not the case. To avoid misleading the user
of the waiting time information, SSA needs to make the reader aware the percentages
reported represent the results of only those offices that submitted data during the
reporting period. The percentage of reporting field offices should also be disclosed.

There were inconsistencies in the number and types of offices represented that may
impact comparability between quarters. The following chart presents the number and
percentage of field offices that submitted FOWTS information by quarter. These

                                             3
percentages represent all the Form submissions scanned into the FY 1999 data file.
However, as explained later, all of these submissions were not included in the waiting
time calculations.

               Table 1: Percentage of Offices with FOWTS Data Submissions

     Quarter         Scheduled          Number of Offices with              Percentage
                      Offices          Submissions on Data File
        1              1,292                    723                              56
        2              1,292                    849                              66
        3              1,292                    824                              64
        4              1,292                    690                              53

To test adherence with the sampling plan and establish sampling methodology, we sent a
questionnaire to a random sample of 64 (5 percent) field offices. We asked whether the
offices missed the FOWTS during at least one quarter in FY 1999. Of the 64 field offices
sampled, 8 offices reported they did not conduct the FOWTS for 1 or more quarters.
However, our review of the data showed that only 17 (27 percent) of these 64 offices
were actually represented in all 4 quarters, and 47 offices (73 percent) had no reports for
1 or more quarters. Reasons cited for missing a sample period included simply forgetting
to conduct the study, thinking the study was no longer being conducted, or considering
the study a low priority in relation to other field office workloads. We compared how many
quarters our sample of 64 field offices submitted data to the total population of field offices
scheduled to conduct studies in FY 1999. The results were similar and are presented in
the following table.

            Table 2: Number of Quarters Field Offices Submitted FOWTS Data

  Number of Quarters Field Offices             1,292 Field             64 Field Offices
   Submitted Waiting Time Data                  Offices /                 Sampled /
                                              (Percentage)              (Percentage)
 Data not submitted for the entire year         238 (18)                     8 (12)
 Data submitted for 1 quarter                   143 (11)                     9 (14)
 Data submitted for 2 quarters                  190 (15)                   13 (20)
 Data submitted for 3 quarters                  322 (25)                   17 (27)
 Data submitted all 4 quarters                  399 (31)                   17 (27)

Of the population of 1,292 field offices, only 399 (31 percent) submitted waiting time data
for each of the 4 quarters, while 238 (18 percent) did not submit waiting time data for the
entire year. The large volume of non-reporters could have impacted the validity of the
results.

According to representatives in the Office of Research, Evaluation, and Statistics (ORES),
the FOWTS sampling methodology was designed so a similar population of urban,
suburban, and rural field offices would be sampled during any given period. Even though


                                              4
SSA did not ensure 100 percent compliance, we determined the mix of offices responding

was representative of the entire field office population.


As shown in Table 3, from a population of 1,292 field offices, SSA classified

267 (20.6 percent) as urban, 515 (39.9 percent) as suburban, and 510 (39.5 percent) as

rural. When examining the classification of offices reporting by quarter, the mix is similar

in composition.


               Table 3: Classification of Field Offices Reporting by Quarter

               Offices
                             st                    nd                   rd                   th
              Sampling      1 Quarter             2 Quarter            3 Quarter            4 Quarter
 Population     Each
                          Quantity   Percent   Quantity   Percent   Quantity   Percent   Quantity   Percent
   Class       Quarter
 Urban              267      156       21.6       169       19.9       170       20.7       132       19.1
 Suburban           515      288       39.8       346       40.8       329       39.9       285       41.3
 Rural              510      279       38.6       334       39.3       325       39.4       273       39.6
 Total            1,292      723      100.0       849      100.0       824      100.0       690      100.0

However, we noted 49 offices (15 urban, 14 suburban, and 20 rural) that indicated they
did not receive visitors during the sampling period. Seven of these offices reported they
did not have visitors for two quarters. While some of the smaller rural offices may not
have received any visitors during the sample periods, this inactivity seems unlikely for
larger facilities in densely populated metropolitan areas. Therefore, although they
submitted reports, some of these offices might actually have been non-reporters.

Another concern we had with this sample was that the Agency appeared to give no
weight to the number of employees field offices had when it assigned the offices to a
particular classification. Because urban offices are typically located in densely populated
areas, a logical assumption would be that more staff is needed to serve customers’
needs. However, we found 2 “urban” offices with only 12 and 13 staff members, while
other “urban” offices had as many as 66 staff members. In addition, SSA classified some
offices as “suburban,” even though they had 54 staff members. While some staffing
differences may be explained, others may indicate an office that is misclassified.

OPSOS analyzed the FOWTS submissions for the first three quarters of FY 2000. We
reviewed this analysis, and the FY 2000 results closely parallel the FY 1999 data. Given
the number of non-reporters identified for FY 1999 and the first three quarters of FY 2000,
SSA should do more to ensure that all field offices are participating in the process. As the
sampling plan is designed, without full participation, the results may be distorted.

FOWTS Not Performed at Assigned Sample Times

After reviewing the field office sample schedule and the FOWTS data files, we determined
that some field offices failed to collect waiting time data during their assigned study
periods. At the beginning of each fiscal year, ORES generates the FOWTS sample days
and times for each SSA field office. ORES systematically selects and randomly assigns

                                                  5
the sample days and times to each field office to capture waiting times experienced in
different types of offices at different times of the day and month. When we compared
scheduled times for the 1,292 field offices to the FOWTS data files, we noted differences
in actual and assigned study times for 261 of the offices. The 261 field offices conducted
a total of 298 studies as follows:

      •   study was taken on the assigned day, but the wrong time (118),
      •   study was taken on the wrong day at the assigned time (145),
      •   study was taken on the wrong day at the wrong time (27), and
      •   study was taken over multiple days and times (8).

For 298 studies to be conducted by 261 offices outside the assigned study period, some
of the offices must have missed their assigned day and/or time on multiple occasions.
The Management Information Manual (MIM) provides instructions for making up a missed
sample period. The MIM states if a field office misses its scheduled sample period, it is to
notify its regional management information staff and sample at the same time during the
next week. The FY 1999 FOWTS data files showed 124 offices failed to conduct the
study on the scheduled day, and 43 conducted their alternate studies on the prescribed
day of the following week.

The MIM states the validity of the waiting time study depends on each field office
adhering to its assigned sample schedule. By not adhering to the sample schedule, field
offices remove the randomness from the sample. Field offices cannot conduct the study
when convenient; they must adhere to the set schedule to ensure the integrity of the
FOWTS.

Data Collection Procedures Varied

Field offices used different methods of collecting waiting time data, which may have
biased results. The MIM allows field office managers to customize the “generic” sampling
instructions to fit local operating practices. However, this latitude has resulted in a variety
of interpretations on how the field offices should collect the data.

In 1995, we reported similar inconsistencies in FOWTS data collection practices.2 To
determine whether the inconsistencies still existed, we asked 64 field offices to document
the actual FOWTS procedures followed at their offices. Our study showed that, while
most of the field offices began measuring a customer’s waiting time when they walked
through the front door, five offices (8 percent) did not start measuring waiting time until
the customer reached the reception counter. Because of the large volume of customers
at some field offices and the lack of staff, we were told it is sometimes difficult to capture
data when an individual enters the office. These customers may have an initial wait
before they are served at the reception counter that is not factored into the data collected.




2
    Monitoring Field Office Waiting Time – A Consultative Report (OEI-02-95-00110), December 1995.

                                                     6
We also identified significant variations in how field offices processed the Forms. The
64 field offices we sampled identified the following 5 methods.

1. 	 In 24 offices, the customer received the Form from the greeter (guard or receptionist)
     to give to the first interviewer. If more than one interview was needed, the first
     interviewer passed the Form to the next interviewer.

2. 	 In 15 offices, the customer received the Form from the greeter, and the customer
     carried the Form from interview to interview.

3. 	 In 14 offices, the customer was not given the Form. The interviewers maintained and
     recorded the waiting time information.

4. 	 For five offices, the field office assigned one individual to observe each customer and
     capture the waiting times of all visitors that arrived during the study period.

5. 	 The remaining six offices did not use the original Form to capture waiting time data.
     Instead, they used an alternate form such as a photocopy or locally prepared log. At
     the end of the study, the data from this alternate form were transcribed, usually by the
     office manager, onto the original Form.

These different collection methods and practices of recording start times could have had
an impact on the quality and accuracy of the data collected. Certain procedures could
easily have been manipulated. In fact, field office representatives acknowledged abuses
do occur for fear of being faulted if customer service results are unsatisfactory.

Sample Period Not Always 1 Hour

The FOWTS design calls for a 1-hour data collection period. However, depending on the
time an office opens or closes, its assigned sample period can actually be more or less
than 1 hour. In FY 1999, 573 of the 5,168 sampling periods scheduled (11 percent)
lasted for more or less than 1 hour. This variance occurred because ORES assigned
sample periods from the time the office opened or until the office closed. However, some
offices opened at 8:00 a.m., while others opened at 9:00 a.m. An assigned sample period
from opening to 10:00 a.m. resulted in data being collected from 1 to 2 hours. Similarly,
some offices closed at 4:30 p.m., while others closed at 4:45 p.m. An assigned sample
period from 4:00 p.m. to close resulted in data being collected from 30 to 45 minutes.
Variances in the lengths of assigned sample periods could have biased the study
findings. Offices that had a collection period of less than 1 hour were underrepresented
in the data, and those with a period of greater than 1 hour were overrepresented. While
we were told the differing sample period lengths were designed to accommodate field
offices with extended or shortened office hours, we believe non-uniform sample periods
reduce the validity of the sample.




                                              7
Not Many Customers with Appointments

Of the 48,661 field office visits included in the FY 1999 FOWTS, only 3,263 (6.7 percent)
were by appointment. Of the 1,054 field offices that reported for at least 1 quarter,
338 (32 percent) claimed they did not have any customers with scheduled appointments
during 1 or more sampling periods. When appointments are encouraged as the preferred
way of conducting business, it is difficult to rationalize how 32 percent of the field offices
reporting would not have any appointments scheduled during the planned sampling
periods.

SSA’s FY 1999 Accountability Report noted that with more stewardship responsibilities
and increases in redeterminations, continuing disability reviews and alerts, more
appointments were made in 1999 than in the past. While we were told that FY 1999
appointment data were not available, we determined from national data maintained by the
Philadelphia Region Information Management and Analysis Team that there were over
4.1 million appointments scheduled and kept in the last 10 months of FY 2000—an
average of 2,467 appointments per hour. The FY 1999 FOWTS data reflect an average
of 0.95 appointments per hour. Field offices are notified of their four quarterly sampling
periods at the beginning of each year. Therefore, we believe managers may be limiting
appointments during these periods to ensure appointment times are met and to free up
staff during the sampling period to more effectively provide service to customers arriving
without an appointment.

We also noted from our sample of 64 offices that some offices include telephone
appointments along with office appointments when reporting waiting times for customers
with appointments. This practice appears contrary to the intent of the performance
measure and may have distorted reported results.

FOWTS DATA PROCESSING UNRELIABLE

Deficiencies in processing field office data as well as in the FOWTS program could have
adversely impacted both the integrity of the FOWTS data and the accuracy of the waiting
time percentages SSA published. Therefore, we were concerned to note SSA did not
maintain an updated classification list for field offices when designing the annual field
office sample. We were also surprised to find that SSA did not control data submissions
and used the FOWTS program to override bad or omitted data by arbitrarily assigning
values or discriminating against certain data.3 These conditions could have impacted the
validity of the resulting data on which SSA based its annual waiting time percentages.




3
 The FOWTS program was originally designed and maintained by the Office of Workforce Analysis. In
1996, OIM assumed responsibility for the FOWTS including maintenance of the data base and all data
processing, analysis and reporting activities.

                                                  8
Classification List Not Updated

SSA used outdated field office classifications when it established field office sample days
and times for the annual FOWTS. Having a representative mix of field offices by
classification is statistically important for a valid FOWTS sample. Because ORES used
outdated classifications, the field office sample selection may not have achieved the
representative mix desired for FOWTS.

ORES had the responsibility of assigning FOWTS sample days and times to individual
offices. To do this, ORES grouped field offices by their urban, suburban, or rural
classifications based on each field office’s service area population density. ORES
grouped the offices in this manner to ensure it selected an equal percentage of offices
within each classification to test during the same sample period.

Because the sampling mix was important to the FOWTS process, we tested the field
office classifications ORES used. We requested a 5-percent random sample of field
offices to identify their office classification as urban, suburban, or rural. Of the 64 field
offices sampled, 25 offices (39 percent) reported a classification different from the list
ORES maintained. Twenty of the offices considered their classifications to be higher,
while the remaining five offices reported themselves in a lower classification. These
responses were based on the responders’ opinions of their service areas, and they
illustrate the changes that may occur with population shifts over a 10-year period.

ORES classified the FOWTS sample using a listing initially prepared with 1990 census
data extracted from the Profiling System Database (PSDB). We were told the ORES
classification listing was not periodically updated to account for changes that could occur
in an office’s service area density due to population shifts. ORES was unaware that
population density data contained in the PSDB were updated annually. The only changes
ORES routinely made to its listing were to add new field offices using the service area’s
population density data at the time of the office’s opening and to remove closed field
offices from the list. By not maintaining current field office information in its classification
listing, the ORES field office study mix did not reflect the actual field office population.

Source Data Not Controlled

OPSOS should have ensured that an independent analysis was performed to determine
whether the FOWTS data the field offices submitted were complete and logical. OIM
merely scanned the data submitted on the individual Forms without any further analysis.
OIM only intervened when a Form did not scan. In those instances, the employee
scanning the document might have corrected the data or, in the worst situations, returned
the Forms to the field office for correction. However, the faulty Forms were not tracked to
ensure they were corrected and returned. In fact, SSA did not maintain any records on
the number of Forms it received from field offices and reconcile that information to the
number of Forms scanned to ensure all the available data were counted.




                                                9
Additionally, OIM had no way of determining the total number of customers served during
the sampling periods. The number of visitors during each of the four study periods varied
within each field office and among field offices. Accordingly, SSA relied on each office to
adhere to the study design and submit Forms for each visitor. OIM had no independent
means by which to verify the totality of the field office submissions.

From our 5-percent sample of 64 field offices, only 5 reported having a tracking system to
ensure the Forms distributed to each visitor during the sample period were returned to the
designated staff member. These offices reported either comparing the number of Forms
collected to the number of visitors that signed in during the study hour or numbering the
Forms before giving them to each visitor and accounting for them at the end of the study.
These results indicate that most field offices did not keep customer logs to ensure all
customers who entered their offices during the sampling period were actually counted and
included in the FOWTS data submitted to OIM.

Omitted and Bad Data Impacted FOWTS Results

While SSA did not maintain the original Forms, we did analyze FOWTS data records
containing information on each of the Forms scanned during FY 1999. Our intent was to
recreate the FOWTS calculation to test the accuracy of the reported percentages. In
reviewing the data, we noted deficiencies in certain records that could have impacted the
calculation’s accuracy. Of the 48,661 records included in the FOWTS file, we eliminated
11,973 records from our calculation because

   •	 8,234 were outside the sampling period of October 1, 1998 through
      September 30, 1999,
   • 38 had invalid office codes or no office codes,
   • 68 indicated no visitors were received during the sampling period,
   • 785 indicated visitors left without service, and
   • 2,848 contained some type of omission or error.

The FOWTS program substituted artificial data to force records into the waiting time
calculation. For FY 1999, 775 records did not contain the time the customer entered the
field office, and 985 records did not show a start time for the first interview. However, the
field offices completed additional fields that indicated the customer did not leave without
service. To force these records into the waiting time calculation, the FOWTS program
automatically performed processing steps whereby the missing elements of one key data
field were filled using elements of another key data field. For example, for the
775 records with a blank “Time Entered Office” field, the program inserted the start time of
the first interview. This practice was problematic because it resulted in understated
waiting times for those customers who may have waited before they were seen for the
first interview. Similarly, for the 985 records with a blank “Start Time 1st Interview” field,
the program used the time the customer entered the office as the start time. This process
of forcing data reduced the overall waiting times for these customers.



                                             10
We also detected records with unreadable or illogical (“bad”) data in key fields, which
were force processed. Specifically, we noted bad data in 358 “Time Entered Office”
fields, 126 “Appointment Time” fields, and 196 “Start Time 1st Interview” fields. Further,
408 records contained negative waiting times to the first interview. Negative waiting times
occurred when the recorded time of the customer’s first interview was before the field
office documented the customer actually arrived. The illogical ordering of time can result
in a portion of the customer’s waiting time being excluded from the waiting time
calculation. Stars may have represented some of the unrecognizable data contained in
these key fields. The FOWTS program made assumptions when processing these data.
Depending on where the star was in the data field, the program either substituted a value
for the star or eliminated it from the data field. The remaining value became the
customer’s newly recorded time.

The FOWTS program used the key data fields on each record to determine whether the
customer had an appointment and to identify the associated waiting times. Although the
Form captured additional data, the following fields were key in the FOWTS calculation of
waiting time percentages.

   •   Time Entered Office
   •   Appointment Time (if applicable)
   •   Start and Stop Time First Interview
   •   Subject of First Interview
   •   Start Time Second Interview
   •   Subject of Second Interview

As discussed above, the data in these key fields were often questionable or corrupt.
However, OIM did not perform a quality review of the data to enhance their accuracy.
Since the Form does not contain identifying information (customer name and Social
Security number) and the field offices sampled did not maintain some type of visitor’s log,
there was no way of identifying a customer or group of customers served during the
sample period. Without this information, SSA had no way of independently validating the
data submitted or possibly correcting omissions/bad data. Instead, the FOWTS program
automatically recreated data fields or eliminated records from the waiting time
calculations. As a result, SSA relied on the processing of partial data and recreated data
to determine whether they met the Agency’s waiting time goals.

Because SSA no longer maintained the original Forms, we could not compare the data on
the forms to the FOWTS data files. Accordingly, we could not determine whether the bad
data could be resolved or contact the affected customers. Nevertheless, from the number
of data errors, omissions, and limits noted during our review, we must question the overall
reliability of the data as an accurate measure of customer waiting times. Force
processing records with problem data into the waiting time calculations by making
assumptions about a customer’s waiting time may have resulted in times being grossly
understated or exaggerated. When asked about the force processing steps, SSA staff
could not explain why the FOWTS program was designed to perform in this manner.
They also could not explain why the waiting time percentages include certain groups of

                                             11
records but not others or why we could not replicate the results outside the FOWTS
program.

FOWTS Program Logic Discriminated Data

In addition to forcing data into the calculation, we noted the FOWTS program
discriminated against select data. In some cases, the length of the first interview was
excluded from the total waiting time. For example, if a customer did not have an
appointment and the subject of the first interview was other than to schedule an
appointment or obtain a Social Security number, the second interview was considered the
in-depth interview. However, when calculating the total waiting time until the second
interview (in-depth interview), the FOWTS program did not capture the elapsed time
during the first interview. Thus, the waiting time calculated did not reflect the actual
length of time the customer had to wait before being seen for their in-depth interview.

In addition, the FOWTS program eliminated groups of customers from the calculation of
the overall percentage of customers without appointments that were served within
30 minutes. The waiting times for most customers without an appointment and whose
business was completed with their first contact (no second interview), was only included
in the calculation if the customer’s business involved a title II and/or title XVI claim and the
interview lasted 15 minutes or longer. Also, the waiting times for those customers without
an appointment whose first interview was a Social Security number matter were
eliminated from the calculations to determine the overall percentage of customers without
appointments who were served within 30 minutes. For FY 1999, 29,778 records
represented customers with no appointment and only 1 interview. Of these records,
13,358 customers discussed a Social Security number matter. Therefore, SSA eliminated
44.8 percent of the records from the waiting time calculation.

On the other hand, SSA counted some waiting times twice in the FOWTS calculation.
This duplication occurred when a customer did not have an appointment and the subject
of the first and second interview was a title II or title XVI claim. In this situation, SSA
added the waiting time between when the customer entered the office and the start of
their first interview to the waiting time between when the customer entered the office and
the start of the second interview.

Although waiting time data are collected for three interviews, SSA did not consider the
third interview data in the FOWTS program when calculating the total waiting time. Of
39,536 records in the FY 1999 FOWTS data, 235 showed time for a third interview.
However, the FOWTS program did not look beyond the start time of the second interview
when determining the waiting time of the record. SSA’s waiting time statistics contain no
data on the amount of time customers spent in a field office after the second recorded
interview.

We attempted to replicate the waiting time calculation using the FY 1999 data but, we
were unsuccessful. Because we could not get a clear and definitive description of the
original FOWTS programming logic, we used a logical presentation of the data eliminating

                                              12
the bad and incomplete data previously discussed. However, we could not successfully
duplicate SSA’s reported percentages outside the FOWTS program. We discussed our
logic with the FOWTS programmer, but the differences could not be resolved.

Lacking a way to identify the correct information that should be recorded, SSA cannot be
certain the times artificially created and the times substituted by the FOWTS program did
not distort the waiting times for those records. The individual who originally developed
the FOWTS program had retired, and no documentation could be found explaining how
the waiting time calculations and the program logic evolved. Without knowing the
reasoning behind each step and each calculation, SSA is unable to ensure the adequacy
of the program used to generate the waiting time percentages and cannot rely on the
results.

SUBSEQUENT EVENTS
In response to this audit and its own concerns with the manual FOWTS, SSA has
developed an Intranet-based application that automates the front-end collection of waiting
time data. The Automated Waiting Time Study was initiated in March 2001, piloted in the
Atlanta region from May through July 2001, and released for Nation-wide use on
July 30, 2001. This application eliminates the need for the Forms to be manually
prepared, mailed to Headquarters, and scanned to create a data file.

While we have not audited the Automated Waiting Time Study, we have discussed its
functionality with the contractor and regional development team. As designed, the new
application processes data nightly rather than quarterly providing for the quick
identification of non-reporters. The application also eliminates the possibility of records
being processed with empty fields, negative waiting times, hours outside of normal
working hours, and “stars” due to scanning problems. With the practice of purging
incomplete entries from the transmitted data, the new application should eliminate the
past practice of force processing data. However, the program logic that discriminated
data will continue to affect the calculated waiting time results. While SSA’s automation of
waiting time data submissions is a step forward, many of the conditions we presented in
the report will remain. Examples follow.

•	 SSA will continue to use the same program logic to process the reported waiting time
   statistics.

•   Customer-identifying information will not be captured.

•	 Field offices can bypass warning messages and complete the FOWTS on an
   unscheduled date and time.

•   One-hour sampling periods will not be enforced.

•   Instead of capturing system times, interview times will be manually input.


                                             13
•	 The Automated Waiting Time Study Coordinator, often the office manager, can make
   ”corrections” or changes to the waiting time records before submitting them for
   automated processing.

•	 Incomplete entries are purged overnight, eliminating them from the FOWTS
   calculation, but no audit trail of these records is maintained.

We understand the Automated Waiting Time Study was only intended as an interim
solution for the data integrity problems previously noted. However, we remain concerned
about the limitations listed above and the resulting reliability of the data used to support
the Agency’s performance measures for field office access.

In the future, SSA plans to develop a Visitor Intake Process (VIP) to capture information
on customer waiting times for all customers. OPSOS indicates that this advanced system
will capture customer identifiers and system waiting time data. The data collected by VIP
is to be available in ”real time” and valid down to the individual field office level. SSA
plans to pilot VIP in FY 2002, dependent on annual budget and personnel constraints.

CONCLUSIONS AND RECOMMENDATIONS
We identified significant problems with the reliability of the data collection, recording, and
processing of FY 1999 FOWTS data.

•	 SSA destroyed source documents used to calculate the FY 1999 waiting time
   percentages.

•	 Of a required 100-percent sample, only 59.7 percent of scheduled office tests were
   conducted. In addition, the percentage of participating field offices varied by quarter.
   A review by OPSOS showed that FY 2000 field office participation was similar.

•	 Only 31 percent of field offices submitted waiting time data for all four quarters during
   FY 1999.

•	 A number of urban and suburban field offices reported no visitors, some for more than
   one quarter.

•	 For those offices that participated, many did not conduct the study at the assigned
   sample time or the alternative sample time outlined in the MIM.

•	 A survey of field offices revealed that data collection procedures varied, possibly
   leading to inconsistent data collection.

•	 The assigned sample times were not consistent in terms of length—11 percent of the
   field office tests were for periods more or less than 1 hour.



                                              14
•	 Outdated field office classification listings were used to design the waiting time
   sample.

•	 SSA neither determined whether field offices completed the FOWTS nor reconciled
   the number of Forms scanned with the number of Forms submitted or visitors seen.
• Data files included a large number of records with omissions and faulty data.

•	 The FOWTS program was designed to make assumptions about omissions and faulty
   data, forcing data into the waiting time calculations. It also eliminated a high number
   of records from the waiting time statistics for unexplained reasons.

Considering the overall problems we identified in the FOWTS sampling process and the
FOWTS program, we question the validity of the resulting FY 1999 waiting time data and
SSA’s ability to accurately compute customers’ waiting times. SSA’s recent actions have
improved the process, and future plans in implementing the VIP will improve the data
collection process even more. However, while waiting for the VIP to be developed and
implemented, SSA should take additional steps to improve the integrity of the current
FOWTS process and the reported results. Therefore, we recommend that SSA:

1. 	 Retain the data submissions, including information on all purged records, to allow data
     verification for at least 2 fiscal years.

2. 	 Disclose in waiting time reports that the percentages are not based on a 100-percent
     response but only represent those offices that submitted data during the reporting
     period.

3. 	 Redefine the published measures so the user fully understands what will be measured
     and reported.

4. Oversee the FOWTS sampling process to ensure that field offices:
   • Participate in quarterly sampling, as directed.
   •	 Sample during the assigned times or according to the approved alternate
      schedule.
   • Follow consistent data collection methodologies.

5. 	 Document the sampling methodology and adjust sampling times so they are
     consistent with the office opening and closing times.

6. 	 Obtain the PSDB revisions and update field office classifications before establishing
     sample days and times for the annual FOWTS.

7. 	 Establish controls over data submissions and follow-up on questionable entries. SSA
     should routinely perform data analysis to ensure its integrity. For example, non-
     reporters should be identified and pursued. Data submissions that appear illogical
     should be clarified. Field offices reporting no appointments during a sampling period


                                             15
   should be questioned. SSA should clearly indicate through its interaction with field
   offices that the quality of the FOWTS data submissions has importance.

8. 	 Evaluate and document the FOWTS programming logic. SSA should ensure FOWTS-
     generated statistics represent the customer workloads it intends to measure.

9. 	 Require that the customer’s Social Security number and name be included with the
     data submissions and records to provide an opportunity to test data reliability and
     follow-up on questionable data.

AGENCY COMMENTS
SSA expressed concern that some of the criticisms contained in the draft report appeared
to be based on speculation and anecdotal information. Nevertheless, SSA recognized
the need to improve the process for collecting waiting time study information and agreed
with seven of our nine recommendations.

SSA believes its procedures already address Recommendation 8. SSA indicated it
regularly evaluates its reporting needs and revises FOWTS as the needs change. SSA
also disagreed with Recommendation 9 to add customer-identifying information to the
automated FOWTS process currently in use. SSA stated that capturing the SSN for each
individual would be too resource intensive and would not be justified. However, SSA
noted future plans to include the customer name and SSN in its planned VIP pilot. See
Appendix C for the full text of SSA’s comments.

OIG RESPONSE
We are pleased SSA agreed with most of our recommendations. We believe field office
access is of utmost importance to the public’s perception of world-class service, and we
are encouraged that SSA plans to focus on these highly visible measures and the data
supporting them.

Regarding SSA’s concern that some of the criticisms expressed in the draft report
appeared to be based on speculation and anecdotal information, we drew our information
from the best available sources. Our conclusion that managers may be limiting
scheduled appointments was based on statements previously made by the Social
Security Advisory Board, regional management, and field office personnel. For example,
while reports of long customer waiting times were anecdotal, the Advisory Board reported
that it heard those reports too consistently from managers and employees Nationwide to
ignore them. Board members themselves reported observing crowded field office waiting
rooms, as we did, and, in the Board’s opinion, this affirmed reports of long waiting times.
The Board concluded SSA’s methods of measuring field office waiting times might rely
too heavily on data that could easily be manipulated to make performance look better
than it really is. Based on conversations with individuals intimately involved in the
FOWTS, our own analysis, and a general lack of controls over FOWTS data collection,
we concurred with the Board’s assessment that manipulation was possible.

                                            16
The intent of our recommendation to evaluate and document the FOWTS programming
logic was to ensure FOWTS-generated statistics represented the customer workloads
SSA intended to measure. To understand exactly what FOWTS data were being captured
and hoW they were being used, we attempted to obtain software documentation
explaining the FOWTS programming logic. As we noted in our report, OIM provided us
the FOWTS program and explained how several individual sections of the program code
were working. However, OIM, OPSOS and OWA were unable to provide written
documentation to explain how the FOWTS program evolved into its current state and why
certain programming steps were taking place. We continue to be concerned with the lack
of program documentation because the automated FOWTS uses the same programming
code as the old, manual FOWTS process, and several of the deficiencies we reported will
persist. Therefore, we still believe SSA should analyze and document the FOWTS
programming logic to assess its validity and ensure that appropriate data are being
measured and included in the waiting time statistics reported by SSA.

Our recommendation to require that SSNs and names be included with data submissions
is needed to allow for internal and independent testing of data reliability. We are
disappointed SSA does not plan to revise the automated FOWTS to include customer-
identifying information. We continue to believe this information is needed to ensure the
integrity of the process by allowing for data verification. We acknowledge the automated
FOWTS is an interim solution; however, the individuals responsible for developing the
automated FOWTS told us including the customer's SSN and name would not be difficult.
These data fields were not included initially because they were not part of the original
system specifications. We believe that capturing customer-identifying information is
justifiable and should be required as soon as possible. Without this information SSA will
be unable to verify and validate the waiting time performance goals as required under the
Government Performance and Results Act.




                                                   ~~
                                                        James   G.   Huse,   Jr.




                                            17
                            Appendices
APPENDIX A - Scope and Methodology


APPENDIX B – Acronyms


APPENDIX C – Agency Comments


APPENDIX D – OIG Contacts and Staff Acknowledgments

                                                                                Appendix A


Scope and Methodology
The objective of this review was to assess the reliability and integrity of the Social
Security Administration’s (SSA) performance data used to measure waiting times for
field office access. Because SSA could not provide documentation to support the data
collected and used to report results for the Fiscal Year (FY) 1999 waiting time
performance measures, we were unable to accomplish the portion of our audit objective
dealing with the reliability of the waiting time data. However, we did evaluate SSA’s
procedures for collecting and analyzing the waiting time data. Without formal
documentation, we relied primarily on discussions with officials from the Offices of
Public Service and Operations Support (OPSOS), Information Management (OIM), and
Research, Evaluation and Statistics (ORES) to detail the Field Office Waiting Time
Study (FOWTS) sampling and data collection processes.

In performing our audit, we:

•	 Interviewed SSA personnel involved in the formulation of the performance indicator
   as well as those involved in the collection, recording, and analysis of the data.

•     Reviewed the Management Information Manual (MIM) related to the FOWTS.

•     Reviewed our prior audit work related to FOWTS.1

•	 Reviewed the Advisory Board report and internal SSA reports and documentation
   related to field office waiting times.

•	 Observed the scanning process used to generate the electronic data files for the
   FOWTS program.

•     Obtained FY 1999 data files used for generating the FOWTS waiting time statistics.

•	 Analyzed FY 1999 FOWTS data files to determine the percentages of non-
   responding field offices and the extent of faulty data used in calculating waiting
   times.

•	 Reviewed the analysis completed by OPSOS to determine whether FY 2000 rates of
   response were similar to FY 1999.

•	 Surveyed a random sample of five-percent of field offices to gather information about
   FOWTS data collection practices.




1
    Monitoring Field Office Waiting Time—A Consultative Report, (OEI-02-95-00110), December 1995.
                                                   A-1
•	 Interviewed SSA personnel regarding alternative measuring systems that could
   capture waiting time data in field offices.

•	 Interviewed SSA personnel regarding the development of the FOWTS program and
   how the program calculated the waiting time statistics.

•	 Obtained data from ORES regarding the methodology SSA used to assign sampling
   times to the field offices. We reviewed the data to determine whether sampling
   times were uniform and evenly distributed over the year.

•   Attempted to replicate the waiting time percentages outside the FOWTS program.

•	 Gathered limited background information and interviewed SSA staff on SSA’s
   various efforts to automate the collection of waiting time data.

We performed our audit in Baltimore, Maryland, and Atlanta, Georgia, from
November 1999 to May 2001. We conducted our audit in accordance with generally
accepted government auditing standards.




                                         A-2
                                                           Appendix B


Acronyms
FOWTS   Field Office Waiting Time Study

FY      Fiscal Year

GPRA    Government Performance and Results Act

MIM     Management Information Manual

OIM     Office of Information Management

OPSOS   Office of Public Service and Operations Support

ORES    Office of Research, Evaluation, and Statistics

PSDB    Profiling System Database

SSA     Social Security Administration

VIP     Visitor Intake Process

                   Appendix C


Agency Comments

                                                         ~        SEC'V
                                                     ~ V'./J~VA



                                                     '1""'#
                                                          '\'lS'fiJ'

                                         SOCIAL               SECURITY


MEMORANDUM


Date
           September   21,   2001                                               Refer To: SIJ-3

To:




Subject:   Office of the Inspector General(GIG) Draft Report: "Perfonnance Measure Review: Reliability
           of the Data Used to Measure Field Office Access" (A-O4-99-03008) -INFORMATION


           We appreciateOIG's efforts in conducting this review. Our comments on the report
           recommendationsare attached.

           Staff questions may be referred to Dan Sweeney on extension 51957.
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT

– PERFORMANCE MEASURE REVIEW: RELIABILITY OF THE DATA USED TO

MEASURE FIELD OFFICE ACCESS (A-04-99-03008)



We appreciate the effort of the OIG in conducting this review,

but are concerned that some of the criticisms expressed in the

draft audit appear to be based on speculation and anecdotal

information. For example, OIG relies on the number of employees

assigned to an office to conclude that the office has been

inappropriately categorized, but no direct correlation has been

identified between staffing, the number of office visits, and an

office's classification. The field office (FO) classifications

used for the report are based on the population density of a FO

service area. Also, OIG’s conclusion that managers "may be

limiting" scheduled appointments to improve office waiting time

reports appears to be speculative.


The Agency recognized a need to improve the process for

collecting waiting time study information before this review

began. Since 1994, we have been involved in testing various

automated queuing and management information systems that have

shown some potential for obtaining better information on

customer access and waiting times. We have also taken steps to

identify non-responders and offices that submitted reports with

edits and/or rejects. The Agency rolled out a WEB-based waiting

time study application this year that provides consistent and

immediate feedback so that offices can better focus on the

importance of doing the studies timely and accurately. In

addition, the Agency plans to pilot a new automated Visitor

Intake Process (VIP) in fiscal year 2002. Implementation will

be dependent on the success of the pilot and the availability of

resources.


Our comments on the report recommendations follow below.


Recommendation 1


Retain the data submissions, including information on all purged

records, to allow data verification for at least two fiscal

years (FY).


Comment


We will retain the data submissions made by our FOs through our

WEB-based waiting time study application, allowing data

verifications for two FYs. The data are designed to be valid



                               C-1
only at the national level, although, as noted, we eventually

plan to capture individual customer and detailed office level

data in the development of the VIP.


Recommendation 2


Disclose in waiting time reports that the percentages are not

based on a 100-percent response but only represent those offices

that submitted data during the reporting period.


Comment


We agree and will ensure that any publications using the data

from the waiting time studies reflect that the information is

based on data derived from sampling.


Recommendation 3


Redefine the published measures so the user fully understands

what will be measured and reported.


Comment


We agree. As the VIP system is tested, we will reevaluate the

published measures to ensure that the data needed to fully

assess visitor access to the services in our field offices are

captured.


Recommendation 4


Oversee the Field Office Waiting Time Study (FOWTS) sampling

process to ensure that field offices participate in quarterly

sampling, as directed; sample during the assigned times or

according to the approved alternate schedule; and follow

consistent data collection methodologies.


Comment


We agree. The absence of current and accurate management

information has been a concern to the Agency. We believe that

the new WEB-based application, while perhaps not ideal, is a

significant improvement. The management information this

application provides will be consistent and immediate, which

will help maintain a focus on conducting the studies timely and

accurately.





                               C-2
Recommendation 5


Document the sampling methodology and adjust sampling times so

they are consistent with the office opening and closing times.


Comment


We agree and will ensure that future sampling times consider

office opening and closing times.


Recommendation 6


Obtain the Profiling Systems Database (PSDB) revisions and

update FO classifications before establishing sample days and

times for the annual FOWTS.


Comment


We agree. Updated information from the PSDB will be used to

determine office classifications before establishing the sample

days and times for the next FOWTS.


Recommendation 7


Establish controls over data submissions and follow-up on

questionable entries. SSA should routinely perform data

analysis to ensure its integrity. For example, nonreporters

should be identified and pursued. Data submissions that appear

illogical should be clarified.





                               C-3
Comment
Our current procedures already address this recommendation. The FOWTS was
developed to capture information required for specific reporting needs. We
regularly evaluate those needs and make revisions in the FOWTS as warranted.

Recommendation 9

Require that the customer’s Social Security number (SSN) and name be included
with the data submissions and records to provide an opportunity to test data
reliability and follow-up on questionable data.

Comment

We disagree. The current waiting time study is not meant to be
customer specific and generates information needed to assess
accessibility only at the national level. Capturing the SSN for
such a study would be too resource intensive and would not be
justified considering that the Agency is developing the VIP
process. When the VIP process is implemented, it will provide
information allowing an auditor to track and verify individual
customer information and office level data.




                                     C-4
                                                                    Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Kimberly A. Byrd, Acting Director, Operational Audit Division, (205) 801-1605

   James D. O’Hara, Deputy Director, Operations Service Delivery, (404) 562-5552

Acknowledgements
In addition to those named above:

   Paula W. Johnson, Auditor

   Teaketa Hayden, Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig
or contact the Office of the Inspector General’s Public Affairs Specialist at
(410) 966-1375. Refer to Common Identification Number A-04-99-03008.
                             DISTRIBUTION SCHEDULE

                                                                             No. of
                                                                            Copies

Commissioner of Social Security                                                  1
Management Analysis and Audit Program Support Staff, OFAM                       10
Inspector General                                                                1
Assistant Inspector General for Investigations                                   1
Assistant Inspector General for Executive Operations                             3
Assistant Inspector General for Audit                                            1
Deputy Assistant Inspector General for Audit                                     1
 Director, Systems Audit Division                                                1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division                                            1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                     1
Issue Area Team Leaders                                                         25
Income Maintenance Branch, Office of Management and Budget                       1
Chairman, Committee on Ways and Means                                            1
Ranking Minority Member, Committee on Ways and Means                             1
Chief of Staff, Committee on Ways and Means                                      1
Chairman, Subcommittee on Social Security                                        2
Ranking Minority Member, Subcommittee on Social Security                         1
Majority Staff Director, Subcommittee on Social Security                         2
Minority Staff Director, Subcommittee on Social Security                         2
Chairman, Subcommittee on Human Resources                                        1
Ranking Minority Member, Subcommittee on Human Resources                         1
Chairman, Committee on Budget, House of Representatives                          1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1
Chairman, Committee on Governmental Affairs                                      1
Ranking Minority Member, Committee on Governmental Affairs                   1
Chairman, Committee on Appropriations, House of Representatives              1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate            1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                   1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                             1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        97
                   Overview of the Office of the Inspector General


                                        Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations

The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
the Agency, as well as conducting employee investigations within OIG. Finally, OEO
administers OIG’s public affairs, media, and interagency activities and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.

                                    Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
